No. 19-

 

IN THE

Supreme Court of the Hunited States

WALID JAMMAL, ET AL.,

Petitioners,
v.

AMERICAN FAMILY INSURANCE COMPANY, ET AL.,

Respondents.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Sixth Circuit

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the foregoing
Petition for a Writ of Certiorari for contains el words, excluding
the parts of the document that are exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and
correct.

Executed on August 22, 2019.

EN

Brian H. Fletcher
Counsel for Petitioner
